OIG Audit Report 04-34
Office of Justice Programs, Annual Financial Statement
Fiscal Year 2003
Report No. 04-34
September 2004
Office of the Inspector General
Commentary and Summary
This audit report contains the Annual Financial Statement of the Office of Justice Programs (OJP) for the fiscal years ended September 30, 2003 and September 30, 2002.  Under the direction of the Office of the Inspector General (OIG), the audit was performed by KPMG LLP and resulted in an unqualified opinion for FY 2003.  An unqualified opinion means that the financial statements present fairly, in all material respects, the financial position and the results of its operations.  For FY 2002, the OJP also received an unqualified opinion on its financial statements (OIG Report 03-21).
During FY 2003 OJP continued to make progress in improving its ability to meet federal financial reporting requirements.  OJP has one reportable condition relating to the need for improvements in general and application controls for electronic data processing.  The auditors did not report any non-compliance with laws and regulations issues.
The OIG reviewed KPMG's report and related documentation and made necessary inquiries of its representatives.  Our review, as differentiated from an audit in accordance with U.S. generally accepted government audit standards, was not intended to enable us to express, and we do not express, an opinion on the Office of Justice Program's financial statements, conclusions about the effectiveness of internal control, or conclusions on compliance with laws and regulations.  KPMG is responsible for the attached auditor's report dated November 25, 2003 and the conclusions expressed in the report.   However, our review disclosed no instances where KPMG did not comply, in all material respects, with generally accepted government auditing standards.